TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Internal Revenue Service Complied With
                  New Approval Requirements for Jeopardy
                                Assessments



                                             June 2006

                              Reference Number: 2006-30-091




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 15, 2006


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Internal Revenue Service Complied With
                               New Approval Requirements for Jeopardy Assessments
                               (Audit # 200530027)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) compliance
 with jeopardy assessment procedures. The overall objective of this review was to determine
 whether the IRS effectively implemented Provision 3434 of the IRS Restructuring and Reform
 Act of 1998 (RRA 98),1 which requires the IRS Office of Chief Counsel to approve all jeopardy
 assessments. Proper implementation of this Provision is important because failure on the part of
 the IRS to follow the new requirements can invalidate a tax assessment.

 Synopsis
 The RRA 98 made significant structural changes in the management and oversight of the IRS
 and enhanced the rights and protections applicable to taxpayers. Provision 3434 of this Act
 provides a protection for taxpayers subject to audit or collection activities. This Provision
 prohibits jeopardy assessments unless the IRS Chief Counsel or delegate personally approves
 them in writing. Jeopardy assessments are immediate assessments made without delay in
 circumstances in which collection of a tax would be endangered if normal procedures were
 followed. In passing this law, Congress believed it was appropriate to require the Office of Chief
 Counsel to review and approve jeopardy assessments because they often involve difficult legal
 issues.



 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                      The Internal Revenue Service Compiled With New Approval
                               Requirements for Jeopardy Assessments



We reviewed jeopardy assessments for 26 different taxpayers affecting 99 tax periods and found
that all had been properly approved by the Office of Chief Counsel, as required.
The Automated Manual Assessment computer application was developed in part to process
jeopardy assessments. It was designed to provide one-stop processing and eliminate many of the
labor-intensive procedures for processing manual assessments, including jeopardy assessments.
The application generates, collects, and stores taxpayer information that is pertinent to the
processing of assessments on taxpayer accounts. IRS personnel at the Submission Processing
Site2 included in our audit were properly using the application to input jeopardy assessments, and
controls to access and use the application were adequate.

Recommendations
We made no recommendations in this report. However, key IRS management officials reviewed
it prior to issuance.
Copies of this report are also being sent to the IRS managers affected by this report. Please
contact me at (202) 622-6510 if you have any questions or Daniel R. Devlin, Assistant Inspector
General for Audit (Small Business and Corporate Programs), at (202) 622-8500.




2
 The data processing arm of the IRS. The sites process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                               2
                          The Internal Revenue Service Complied With New Approval
                                   Requirements for Jeopardy Assessments




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 3
          The Internal Revenue Service Effectively Implemented
          Legislation Mandating Changes to Processes for Making
          Jeopardy Assessments.....................................................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 5
          Appendix II – Major Contributors to This Report ..........................................Page 7
          Appendix III – Report Distribution List .........................................................Page 8
                      The Internal Revenue Service Complied With New Approval
                               Requirements for Jeopardy Assessments




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1 made
significant structural changes in the management and oversight of the IRS and enhanced the
rights and protections applicable to taxpayers. Provision 3434 of RRA 98 provides a protection
for taxpayers subject to audit or collection activities. It amended Internal Revenue Code Section
7429(a)(1)(A) (1994 & Supp 3 1997) and prohibited jeopardy assessments unless the IRS Chief
Counsel or delegate personally approved in writing such assessments.
Jeopardy assessments are immediate assessments of tax, penalty, or interest that must be
manually processed in circumstances in which collection of a tax would be endangered if normal
processing procedures were followed. IRS personnel generally prepare these manual
assessments when the statute of limitations is imminent or when the collection process must be
accelerated. Possible reasons for accelerating an assessment include (1) the taxpayer appears to
be planning to go into hiding or depart the United States, (2) the taxpayer appears to be planning
to place property beyond the reach of the IRS, or (3) the taxpayer’s financial solvency appears to
be imperiled. Jeopardy processing allows an assessment date approximately 14 calendar days
earlier than if the assessment was processed normally.
When a jeopardy assessment is made, the taxpayer is entitled to receive a written statement
within 5 calendar days that explains the information the IRS relied on for making the jeopardy
assessment. The taxpayer may request an administrative review after receiving the 5-day notice.
If approval was not properly obtained from the Office of Chief Counsel, the taxpayer would be
entitled to an abatement of this assessment. If the IRS fails to offer such relief, the taxpayer can
appeal to the IRS Appeals office and then to tax court if he or she is not satisfied with the
Appeals office judgment.
Formerly, there was no requirement for the Office of Chief Counsel to preapprove jeopardy
assessments. In passing this law, Congress believed it was appropriate to require the Office of
Chief Counsel to review and approve jeopardy assessments because they often involve difficult
legal issues. The authority of the Chief Counsel may not be delegated to anyone lower than an
Associate Area Counsel.
This review was performed at the Accounting Control/Services Operation in the Ogden
Submission Processing Site2 in Ogden, Utah, during the period October 2005 through
February 2006. The audit was conducted in accordance with Government Auditing Standards.

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The data processing arm of the IRS. The sites process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                            Page 1
                  The Internal Revenue Service Complied With New Approval
                           Requirements for Jeopardy Assessments



Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                      The Internal Revenue Service Complied With New Approval
                               Requirements for Jeopardy Assessments




                                       Results of Review

The Internal Revenue Service Effectively Implemented Legislation
Mandating Changes to Processes for Making Jeopardy Assessments
Provision 3434 of the RRA 98 requires the IRS Office of Chief Counsel to preapprove all
jeopardy assessments. Before enactment of this Provision, IRS personnel were instructed to
obtain approval from the Office of Chief Counsel only if time permitted. To facilitate
implementation of Provision 3434, the IRS updated the Internal Revenue Manual and educated
employees concerning the mandatory approval. Once the jeopardy assessment is properly
approved, this information is entered into the Automated Manual Assessment application, which
is used to control the assessment and billing documents.

The Internal Revenue Manual was updated, and employees were properly
instructed
Provision 3434 required that instructions be issued to make it clear to IRS employees that the
statutory requirement for approval of jeopardy assessments by the Office of Chief Counsel took
precedence over previously issued instructions contained in the Internal Revenue Manual. This
would prevent any jeopardy assessments without proper approval from the Office of Chief
Counsel before the Internal Revenue Manual was officially changed. The IRS issued the
required instructions then made the appropriate changes to the Internal Revenue Manual.
To determine whether employees were not only aware of but also following the new instructions,
we reviewed a judgmental sample of jeopardy assessments made from September 14, 2004,
through December 20, 2005. Jeopardy assessments were made on a total of 38 taxpayer
accounts for 142 tax periods nationwide during this period. We reviewed documentation for
26 of these taxpayers affecting 99 tax periods. The control the IRS had developed for routing
jeopardy assessment requests for appropriate approval signatures appeared to be working.3




3
 The IRS requires a final approving signature from the Chief Counsel or a delegate, but it does not have a list of
valid signatures. Because the control had been properly established, we did not do further testing to validate each
Chief Counsel signature.
                                                                                                              Page 3
                      The Internal Revenue Service Complied With New Approval
                               Requirements for Jeopardy Assessments



The Automated Manual Assessment application was used to control jeopardy
assessments
The Automated Manual Assessment computer application was developed to provide one-stop
processing and eliminate many of the labor-intensive procedures for processing manual
assessments. IRS personnel access and use the application to process and control all manual
assessments, including jeopardy assessments. This is a nationwide computer application that
generates, collects, and stores data that are pertinent to the processing of manual assessments on
taxpayer accounts. The application does the following:
    •   Performs math verification.
    •   Conducts transaction validation.
    •   Generates a Document Locator Number4 to control assessment source documents.
    •   Prints Prompt Assessment Billing Assembly (Form 3552(C)).
    •   Prints Block Control File (Form 813).5
    •   Archives assessments to assist in research and to reduce the need for physical space to
        store source documents.
    •   Provides nationwide consistency in recording journal entries for the Accounting function.
IRS personnel at the Ogden Submission Processing Site were properly using the Automated
Manual Assessment application to process and control jeopardy assessments. We also
determined that access to the Automated Manual Assessment application was restricted to only
authorized users based on database permissions.
An employee duty chart outlining responsibilities for input of the assessment cases was posted
and followed each day. The chart assigned the initial input, key verification, and posting of the
day’s transactions to the Interim Revenue Accounting Control System to different employees and
ensured these assignments were regularly rotated. The duty chart also showed how the
responsibilities for assessment processing were regularly rotated and separated daily; these input
duties were being followed.




4
  A unique number assigned to every tax return to assist in controlling, identifying, and locating the return.
5
  The Form 813 lists documents, lists assessment accounts with totals, and gives or provides the grand total of the
Form. It is then used as a source document for journaling on the Interim Revenue Accounting Control System, a
system used to record tax revenue due the Federal Government and maintain records of internal taxpayer account
transactions, assessments, collections, accounts receivables, disbursements, and over-assessments. This is an Office
of Management and Budget reported Financial Management System.
                                                                                                            Page 4
                      The Internal Revenue Service Complied With New Approval
                               Requirements for Jeopardy Assessments



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) effectively implemented Provision 3434 of the IRS Restructuring and Reform Act of 1998
(RRA 98),1 which requires the IRS Office of Chief Counsel to approve all jeopardy assessment
cases. To accomplish this objective, we:
I.      Evaluated jeopardy assessment processing procedures.
        A. Determined jeopardy assessment processing procedures by reviewing the Internal
           Revenue Manual and instructions to IRS personnel.
        B. Determined necessary changes in processing jeopardy assessments due to enactment
           of the RRA 98.
        C. Interviewed IRS personnel at the Ogden Submission Processing Site2 in
           Ogden, Utah, to determine whether cases were processed according to Internal
           Revenue Manual procedures.
II.     Reviewed controls over the Automated Manual Assessment application3 to determine
        whether access, approval, and input to the application were being controlled as required
        by the Internal Revenue Manual.
        A. Determined internal controls for the Automated Manual Assessment application by
           reviewing the Automated Manual Assessment User’s Guide and interviewing IRS
           personnel.
        B. Interviewed IRS processing personnel and management, as necessary, to determine
           actual processing and approval procedures.
        C. Determined whether controls were functioning as intended by interviewing IRS
           personnel at the Ogden Submission Processing Site and observing the access,
           approval, and input processes.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  The data processing arm of the IRS. The sites process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  This application was developed to provide one-stop processing and eliminate many of the labor-intensive
procedures for processing manual assessments. IRS personnel access and use the application to process and control
all manual assessments, including jeopardy assessments.
                                                                                                          Page 5
                      The Internal Revenue Service Complied With New Approval
                               Requirements for Jeopardy Assessments



III.     Determined whether jeopardy assessment cases were properly approved.
         A. Requested and determined the reliability of jeopardy assessment data contained in the
            Automated Manual Assessment application. IRS management at the Ogden
            Submission Processing Site provided us with data containing all 142 jeopardy
            assessment cases processed from September 14, 2004, through December 20, 2005,
            that had been entered on the Automated Manual Assessment Database.4 We
            compared 99 of the 142 Recommendations for Jeopardy/Termination Assessment
            (Form 2644) to data that had been entered into the database and determined the data
            were sufficiently reliable for our purposes.
         B. Reviewed a judgmental sample of 99 (affecting 26 taxpayers) of the 142 jeopardy
            assessments (affecting 38 taxpayers) made nationwide from September 14, 2004,
            through December 20, 2005. We analyzed Forms 2644 to determine whether all
            jeopardy assessments were requested on the appropriate Form and had all of the
            required approvals and signatures from the Office of Chief Counsel.5




4
  IRS management represented that all of the jeopardy assessments processed during the dates specified were
included on the list they provided to us. Because there was no alternative way to identify jeopardy assessments or to
verify that all jeopardy assessments processed during the dates specified were provided on the list, we relied on the
data supplied by the IRS.
5
  We selected a judgmental sample because the entire universe of 142 case files had not been received by the close
of fieldwork. Accordingly, we could not select a random sample of these cases or perform a 100 percent review.
                                                                                                             Page 6
                  The Internal Revenue Service Complied With New Approval
                           Requirements for Jeopardy Assessments



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
L. Jeff Anderson, Audit Manager
Douglas C. Barneck, Lead Auditor
Kyle D. Bambrough, Senior Auditor
Greg A. Schmidt, Senior Auditor




                                                                                       Page 7
                The Internal Revenue Service Complied With New Approval
                         Requirements for Jeopardy Assessments



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                               Page 8
